              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report
Review of Status of Prior Export Control
Recommendations at the Department
of Energy




INS-O-07-01                                     May 2007
REVIEW OF STATUS OF PRIOR EXPORT CONTROL
RECOMMENDATIONS AT THE DEPARTMENT OF ENERGY


TABLE OF
CONTENTS
             OVERVIEW

             Introduction and Objectives …………………………….             1

             Observations and Conclusions ………………………… 2


             DETAILS OF FINDINGS

             Background ………………………………………………                        3

             Access to the Commerce Export License Database ..    3

             Export Control Guidance ………………………..……… 4

             Implementation of Recommendation …………….……            5

             Revision to Order 142.3 ……......……….……………… 5


             RECOMMENDATIONS ………………………………...                      6


             MANAGEMENT COMMENTS …………………………                       6


             INSPECTOR COMMENTS …………………………….. 6


             APPENDICES

             A. Scope and Methodology ….………………………… 7

             B. Prior Export Control Related Reports ………….….      8

             C. Status of Recommendations from Prior
                National Defense Authorization Act Reports .…….   9

             D. Management Comments ……………………………                   14
Overview

INTRODUCTION     The National Defense Authorization Act (NDAA) for Fiscal Year
AND OBJECTIVES   2000 provided that beginning in the year 2000 and ending in the
                 year 2007, the President shall annually submit to Congress a report
                 by the Inspectors General of, at a minimum, the Departments of
                 Energy (Energy), Commerce (Commerce), Defense (Defense), and
                 State (State) of the policies and procedures of the United States
                 Government with respect to the export of technologies and
                 technical information with potential military application to
                 countries and entities of concern. To date, the Energy Office of
                 Inspector General (OIG) has issued 7 reports under this
                 requirement and has made 17 recommendations to Energy,
                 including the National Nuclear Security Administration (NNSA),
                 towards improving Energy’s export control efforts. A listing of
                 these and other export related reports is contained in Appendix B.

                 The objective of this inspection was to determine the status of all
                 17 prior export control recommendations. Details on the
                 recommendations and managements’ responses are provided in
                 Appendix C.




Page 1                                           Review of Status of Prior Export
                                                 Control Recommendations at
                                                 the Department of Energy
OBSERVATIONS AND   We concluded that the actions taken by Energy regarding the 14
CONCLUSIONS        closed recommendations appeared to be responsive and that these
                   recommendations should remain closed. We also concluded that
                   two of the three remaining open recommendations should be
                   closed. Finally, we made two additional recommendations based
                   upon this review. Regarding the three open recommendations, we
                   determined that:

                   •   The two recommendations pertaining to NNSA and
                       Commerce’s Export Control Automated Support System
                       should be closed because NNSA has found alternate ways to
                       access the necessary data; and

                   •   The one recommendation to ensure that export control
                       guidance is disseminated and implemented throughout the
                       complex should remain open because it is incomplete.

                   Regarding the two additional recommendations, we determined
                   that:

                   •   NNSA management should expedite action, such as issuing a
                       directive or modifying the Department of Energy Acquisition
                       Regulation (DEAR), to fully implement the open
                       recommendation; and

                   •   Energy Order 142.3, “Unclassified Foreign Visits and
                       Assignments,” should be revised to reflect the current Energy
                       process for reviewing foreign national visitors and assignees
                       from state sponsors of terrorism.

                   Presently, the OIG is conducting an audit of the Department’s
                   unclassified foreign visits and assignments program, which
                   includes issues that were covered in our previous reports and
                   recommendations. The OIG is also conducting an inspection of
                   foreign national access to computers, which also relates to foreign
                   visits and assignment activities. Although our office has
                   conducted several reviews on foreign visitor-related topics, the
                   reviews above may identify additional areas for improvement.




Page 2                                              Observations and Conclusions
Details of Findings

BACKGROUND                           The principal legislative authorities governing the export control of
                                     nuclear-related, dual-use1 items are the Export Administration Act
                                     of 1979 and the Nuclear Non-Proliferation Act of 1978. The
                                     provisions of the Export Administration Act have been updated by
                                     Executive Order, most recently by Executive Order 12981, which
                                     grants the Secretary of Commerce the authority to refer export
                                     license applications to other agencies for review and gives
                                     agencies such as Energy the authority to look at any export license
                                     application submitted to Commerce.

                                     Energy’s export control efforts, as coordinated by NNSA’s Office
                                     of International Regimes and Agreements (OIRA), includes the
                                     review of export license applications for nuclear, chemical,
                                     biological, and missile-related commodities. In addition to
                                     reviewing licenses, OIRA participates in working level groups
                                     with other Federal agencies for licensing and nonproliferation
                                     activities. Also, Energy’s Office of Foreign Visits and
                                     Assignments establishes Energy policies for the review and
                                     processing of visits and assignments by foreign nationals to Energy
                                     and NNSA facilities. Reviews of foreign visits and assignments
                                     are relevant to Energy’s export control efforts because any release
                                     of technology or software subject to U.S. Export Administration
                                     Regulations to a foreign national is “deemed to be an export” to the
                                     foreign national’s home country.

ACCESS TO THE                        We determined that the two recommendations pertaining to NNSA
COMMERCE EXPORT                      and Commerce’s Export Control Automated Support System
LICENSE DATABASE                     should be closed because NNSA has found alternate ways to
                                     access the necessary data.

                                     During March 2005, we issued a report entitled “The Department of
                                     Energy’s Review of Chemical and Biological Export License
                                     Applications,” DOE/IG-0682, which had two recommendations
                                     regarding access to and training on Commerce’s Export Control
                                     Automated Support System (ECASS). We had determined that
                                     although information from ECASS was obtained by officials at the
                                     Los Alamos National Laboratory for Energy’s export license
                                     reviews, only one OIRA Headquarters official had access to ECASS
                                     and no OIRA Headquarters officials were trained in ECASS. We
                                     were advised by OIRA officials during 2005 that a lack of direct
                                     access to and training in ECASS was a problem for the timely and

1
    Some controlled commodities are designated as “dual-use,” that is, goods and technologies that have both civilian
    and military uses. The U.S. Government designates some dual-use commodities as “nuclear dual-use” items,
    which are controlled for nuclear nonproliferation purposes.



Page 3                                                                                      Details of Findings
                 efficient review of export licenses by OIRA Headquarters officials.
                 Accordingly, we made the ECASS recommendations. Both
                 recommendations remained open when we initiated this review.

                 Since these two recommendations were made, OIRA Headquarters
                 officials have made continual efforts to receive access to and
                 training on ECASS. Although Commerce has provided access to
                 ECASS, access has not been effective because of recurring
                 problems in maintaining connectivity with ECASS by OIRA
                 Headquarters. We were advised by OIRA officials that these
                 connectivity problems resulted from computer system changes at
                 Commerce. OIRA officials further advised that they have not
                 received ECASS training; however, due to the lack of connectivity,
                 the training was not currently a concern. Because of these
                 connectivity problems, OIRA Headquarters officials employed
                 other means to obtain the information needed to conduct timely
                 and effective export license reviews. Specifically, OIRA
                 Headquarters officials obtained initial export license application
                 information through the link to ECASS at the Los Alamos National
                 Laboratory and obtained any further export license information on
                 specific cases through formal and informal means, such as through
                 its participation in various interagency groups and periodic contact
                 with Commerce officials.

                 Accordingly, OIRA Headquarters officials have been able to
                 obtain the information necessary for them to conduct their required
                 reviews in a timely and effective manner without having access to
                 and training on ECASS. OIRA officials advised us that they will
                 continue to pursue ECASS connectivity and training. However, as
                 discussed above, the recommendations requiring access to and
                 training on ECASS have become of limited additional value to
                 OIRA’s export license review process. Based upon our current
                 review, we closed these two open recommendations.

EXPORT CONTROL   We determined that the one recommendation to ensure that export
GUIDANCE         control guidance is disseminated and implemented throughout the
                 complex should remain open because it is incomplete.

                 During April 2004, we issued a report entitled “Contractor
                 Compliance with Deemed Export Controls,” DOE/IG-0645, which
                 recommended that NNSA ensured that export control guidance,
                 including deemed export guidance, was disseminated and
                 consistently implemented throughout Energy. Although NNSA
                 management had taken some action regarding this



Page 4                                                         Details of Findings
                    recommendation, it had not been fully implemented when we
                    initiated this review.

IMPLEMENTATION OF   We determined that NNSA management should expedite action,
RECOMMENDATION      such as issuing a directive or modifying the DEAR, to fully
                    implement the open recommendation to ensure that export control
                    guidance is disseminated and consistently implemented throughout
                    the Energy complex.

                    Based upon our prior recommendation, OIRA initiated several
                    export control site reviews and determined that some contractors
                    lacked funds and staff to consistently implement the existing
                    informal guidance that had been prepared by OIRA in 1999. Also
                    based upon this recommendation, OIRA revised existing informal
                    export control guidance for dissemination throughout the Energy
                    complex. However, Energy and NNSA General Counsel officials
                    informed OIRA that issuing revised informal guidance would not be
                    the most effective way to ensure consistent export control
                    compliance across the Energy complex. OIRA was informed that a
                    formal order or possible modification to the DEAR would be more
                    effective ways to ensure compliance with export control
                    requirements by all Energy and NNSA contractors.

                    OIRA prepared a justification for issuing a formal order on export
                    controls, which is currently under NNSA management review.
                    NNSA is also considering a modification to the DEAR as an
                    alternative to issuing an order. We believe that a directive or
                    modification to the DEAR would be effective ways to implement
                    our recommendation. We, therefore, recommend that NNSA
                    management expedite action, such as issuing a directive or
                    modifying the DEAR, to implement our prior recommendation.

REVISION TO         We determined that Energy Order 142.3, “Unclassified Foreign
ORDER 142.3         Visits and Assignments,” should be revised to reflect the current
                    Energy process for reviewing foreign national visitors and assignees
                    from state sponsors of terrorism. Our prior recommendations
                    concerning Energy policy for unclassified foreign visits and
                    assignments were closed as a result of the issuance of Order 142.3 and
                    will remain closed. However, the process listed in Order 142.3 states
                    that all access requests for nationals of countries designated as state
                    sponsors of terrorism to unclassified Energy programs, information
                    and technology be reviewed by a Headquarters Management Panel.
                    The Panel consisted of the Directors of the Energy Offices of Security,
                    Counterintelligence, and Intelligence, and representatives designated



Page 5                                                            Details of Findings
                  by the Under Secretary of Energy, Science and Environment and the
                  Under Secretary for Nuclear Security/Administrator for the NNSA.
                  Since the issuance of this order, Energy reorganized and has a
                  structure with three Under Secretaries: the Under Secretary for
                  Energy; the Under Secretary for Science; and the Under Secretary for
                  Nuclear Security/Administrator for the NNSA. Additionally, the
                  Offices of Intelligence and Counterintelligence were consolidated into
                  a single Office of Intelligence and Counterintelligence. Consolidation
                  of these offices has not substantively affected the review process;
                  however, based upon an administrative change to existing Order 142.3,
                  representatives of all three Under Secretaries are now part of the panel.

                  An Office of Foreign Visits and Assignments official advised that
                  the parties involved in the review process determined that it was of
                  little value for representatives of all three Under Secretaries to
                  participate in every panel review. The official advised that, instead,
                  the current practice is to have access requests reviewed by the Office
                  of Security, the Office of Intelligence and Counterintelligence, and
                  the Under Secretary with cognizance over the program requesting
                  access. The official advised that Order 142.3 should be revised to
                  reflect the current practice of involving only the cognizant Under
                  Secretary in a panel review. Based on the above, we recommend
                  that Order 142.3 be revised to reflect Energy’s actual practice.

RECOMMENDATIONS   We recommend that the Deputy Administrator, Defense Nuclear
                  Nonproliferation:

                  1. Expedite actions, such as issuing a directive or modifying the
                     DEAR, to ensure compliance with export control requirements
                     throughout the Energy complex.

                  We recommend that the Chief Health, Safety and Security Officer:

                  2. Revise Order 142.3 to reflect the actual process for reviewing
                     access requests for nationals of state sponsors of terrorism.

MANAGEMENT        In comments on our draft report, management agreed with our
COMMENTS          recommendations and identified timelines for completing
                  corrective actions. The comments from both organizations are
                  included in their entirety at Appendix D.

INSPECTOR         We found management’s comments to be responsive to our report
COMMENTS          recommendations.



Page 6                                                        Recommendations,
                                                              Management and
                                                              Inspector Comments
Appendix A

SCOPE AND     We conducted fieldwork for this review in January and
METHODOLOGY   February 2007. We interviewed Federal and contractor Energy
              officials, including NNSA employees and contractors. We also
              reviewed relevant export control regulations and Energy policies
              relevant to export controls. As part of our review, we evaluated
              Energy’s implementation of the “Government Performance Results
              Act of 1993.”

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                               Scope and Methodology
Appendix B

                  PRIOR EXPORT CONTROL RELATED REPORTS

•    “The Department of Energy’s Review of Export License Applications for China,”
     DOE/IG-0723, April 2006;

•    “The Department of Energy’s Review of Chemical and Biological Export License
     Applications,” DOE/IG-0682, March 2005;

•    “Contractor Compliance with Deemed Export Controls,” DOE/IG-0645, April 2004;

•    “Safeguards Over Sensitive Technology,” DOE/IG-0635, January 2004;

•    “Inspection of Status of Recommendations from the Office of Inspector General’s March
     2000 and December 2001 Export Control Reviews,” INS-L-03-07, May 2003;

•    “The Department’s Unclassified Foreign Visits and Assignments Program,”
     DOE/IG-0579, December 2002;

•    “Follow-up Inspection of the Department of Energy’s Export Licensing Process for
     Foreign National Visits and Assignments,” INS-L-02-06, June 2002;

•    “Inspection of the Department of Energy’s Automated Export Control System,”
     DOE/IG-0533, December 2001;

•    “Inspection of the Department of Energy’s Role in the Commerce Control List and the
     U.S. Munitions List,” INS-O-01-03, March 2001;

•    “Inspection of the Department of Energy’s Export License Process for Foreign National
     Visits and Assignments,” DOE/IG-0465, March 2000;

•    “The Department of Energy’s Export Licensing Process for Dual-Use and Munitions
     Commodities,” DOE/IG-0445, May 1999; and

•    “Report on Inspection of the Department’s Export Licensing Process for Dual-Use and
     Munitions Commodities,” DOE/IG-0331, August 1993.




Page 8                                              Prior Export Control Related Reports
Appendix C


                   STATUS OF RECOMMENDATIONS FROM PRIOR
                 NATIONAL DEFENSE AUTHORIZATION ACT REPORTS

Section 1204 of the National Defense Authorization Act (NDAA) for Fiscal Year 2001 amended
Section 1402(b) of the NDAA for Fiscal Year 2000 to require the specified Office of Inspectors
General (OIGs) to include in each annual report the status of the implementation or other
disposition of recommendations that have been set forth in previous annual reports under Section
1402(b). To date, seven reports have been completed by the Energy OIG under this requirement.
Two reports: “Inspection of Status of Recommendations from the Office of Inspector General’s
March 2000 and December 2001 Export Control Reviews,” INS-L-03-07, May 2003, and
“Inspection of the Department of Energy’s Role in the Commerce Control List and the U.S.
Munitions List,” INS-O-01-03, March 2001, did not contain recommendations. The following is
the status of the recommendations from the other five reports. Of 17 total recommendations, 14
have already been closed and the remaining 3 are to be closed as a result of this current report.

“The Department of Energy’s Review of Export License Applications for China,” DOE/IG-
0723, April 2006

Recommendation 1. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation expedite the development and implementation of the new Lawrence Livermore
National Laboratory database for processing end-user reviews.

Energy management stated that the end-user database at the Lawrence Livermore National
Laboratory is up and running to support all new incoming export license applications received
from Commerce. This database is being enhanced to help ensure a complete search capability
for entities by incorporating standard names for the facilities names. The Energy OIG agreed to
close this recommendation.

Recommendation 2. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation coordinate with the Director, Office of Intelligence and Counterintelligence
ensure personnel affiliated with the Office of Defense Nuclear Nonproliferation who conduct
export license reviews have continual access to Sensitive Compartmented Information computers
and be able to hand carry Sensitive Compartmented Information documents.

Energy management stated that both offices have met and coordinated regarding this
recommendation. Access has subsequently been granted to contractor staff affiliated with the
Office of Defense Nuclear Nonproliferation to use Sensitive Compartmented Information
computers and hand carry Sensitive Compartmented Information. The Energy OIG agreed to
close this recommendation.




Page 9                                                     Status of Recommendations from
                                                           Prior National Defense
                                                           Authorization Act Reports
“The Department of Energy’s Review of Chemical and Biological Export License
Applications,” DOE/IG-0682, March 2005

Recommendation 1. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation take appropriate action to ensure that Energy licensing officers have access to
the Department of Commerce’s Export Control Automated Support System (ECASS).

As discussed in the findings section of this report, we are closing this recommendation.

Recommendation 2. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation take appropriate action to ensure that Energy licensing officers are properly
trained in the use of this system.

As discussed in the findings section of this report, we are closing this recommendation.

“Contractor Compliance with Deemed Export Controls,” DOE/IG-0645, April 2004

Recommendation 1. We recommended that the Director, Office of Security and Safety
Performance Assurance expedite issuance of a draft unclassified foreign visits and assignments
Order 142.X that addresses training requirements and responsibilities for hosts of foreign
nationals.

Energy management reported that Energy Order 142.3 was approved on June 18, 2004. The
Energy OIG determined that Energy Order 142.3 included training requirements and
responsibilities for hosts of foreign nationals and agreed to close this recommendation.

Recommendation 2. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation ensure that export control guidance, including deemed export guidance, is
disseminated and is being consistently implemented throughout the Energy complex.

As discussed in the findings section of this report, this recommendation will remain open.

“Inspection of the Department of Energy’s Automated Export Control System,”
DOE/IG-0533, December 2001

Recommendation 1. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with the Departments of Commerce and Treasury to
ensure access by Energy to information within the Automated Export System regarding the
purchase and/or shipment of commodities under an approved export license, and develop
guidelines for Energy’s access to the information.

Energy management reported that the National Nuclear Security Administration (NNSA) has
taken actions as far as its cognizant authority allows. All remaining actions are contingent on


Page 10                                                     Status of Recommendations from
                                                            Prior National Defense
                                                            Authorization Act Reports
other Government agencies. NNSA recommended that the interagency OIG group involved with
export controls make specific recommendations to individual agencies in order to effect change.
While actions are not completed, NNSA can no longer report meaningful status. The Energy
OIG agreed to close this recommendation.

Recommendation 2a. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with State to improve communications regarding review
of export license applications for munitions commodities.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status. The Energy OIG agreed to close this
recommendation.

Recommendation 2b. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with State to ensure access by Energy to information
maintained by State regarding final disposition (i.e., approval/denial of license applications and
the purchase and/or shipment of commodities) of export license applications and develop
guidelines for Energy’s access to the information.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status. The Energy OIG agreed to close this
recommendation.

“Inspection of the Department of Energy’s Export License Process for Foreign National
Visits and Assignments,” DOE/IG-0465, March 2000

Recommendation 1. We recommended that the Acting Deputy Administrator for Defense
Nuclear Nonproliferation ensure that senior Energy officials work with senior Commerce
officials to assure clear, concise, and reliable guidance is obtained in a timely manner from
Commerce regarding the circumstances under which a foreign national’s visit or assignment to
an Energy site would require an export license.

Energy management was advised by the Commerce Assistant Secretary for Export
Administration that extensive guidance regarding compliance with the deemed export rule was
available on the Commerce Web site and that Commerce would continue to strengthen its
outreach training programs for Energy’s National Laboratories. The Energy OIG agreed to close
this recommendation.


Page 11                                                      Status of Recommendations from
                                                             Prior National Defense
                                                             Authorization Act Reports
Recommendation 2. We recommended that the Director, Office of Security and Emergency
Operations ensure that a proposed revision of the Energy Notice concerning unclassified foreign
visits and assignments includes the principal roles and responsibilities for hosts of foreign
national visitors and assignees.

Energy management reported that Energy Order 142.3 was approved on June 18, 2004. The
Energy OIG determined that Energy Order 142.3 included the principal roles and responsibilities
for hosts of foreign national visitors and assignees and agreed to close this recommendation.

Recommendation 3. We recommended that the Director, Office of Security and Emergency
Operations, include a requirement for Energy and Energy contractor officials to enter required
foreign national visit and assignment information in the Foreign Access Records Management
System, or a designated central database, in a complete and timely manner.

Energy management reported that a new Energy-wide information system, the Foreign Access
Centralized Tracking System (FACTS), was developed and implemented. Energy management
further advised that draft Order 142.X includes a requirement for Energy sites to enter required
foreign national visit and assignment information into FACTS in a complete and timely manner.

Because Energy management’s corrective action addressed usage of FACTS by all Energy
Federal and contractor employees, the Energy OIG agreed to close this recommendation and
track this issue under recommendation 8.

Recommendation 4. We recommended that the Manager of Energy’s Oak Ridge Operations
Office ensure that requests for foreign national visits and assignments at the Oak Ridge site are
reviewed by the Y-12 National Security Program Office to assist in identifying those foreign
nationals who may require an export license in conjunction with the visit or assignment.

Energy management reported that, to ensure requests for foreign national visits and assignments
at the Oak Ridge National Laboratory receive appropriate export license consideration, Oak
Ridge National Laboratory initiated a system of reviews. Under the system, requests are
reviewed by five separate disciplines (Cyber Security, Export Control, Classification,
Counterintelligence, and Security). In addition, requests associated with concerns are referred
for resolution to the Non-citizen Access Review Committee. Energy management further
reported that while each of the reviews can involve the National Security Program Office, the
Oak Ridge National Laboratory Export Control Officer is responsible for referring requests to
the National Security Program Office as necessary. The Energy OIG agreed to close this
recommendation.

Recommendation 5. We recommended that the Director, Office of Security and Emergency
Operations ensure that the requirements in the revised Energy Notice for unclassified foreign
national visits and assignments are clearly identified and assigned to responsible officials or
organizations.


Page 12                                                      Status of Recommendations from
                                                             Prior National Defense
                                                             Authorization Act Reports
Energy management reported that Energy Order 142.3 was approved on June 18, 2004. The
Energy OIG determined that Energy Order 142.3 included clear identification of requirements
for foreign national visits and assignments, and identifies responsible officials and organizations
and agreed to close this recommendation.

Recommendation 6. We recommended that the Acting Deputy Administrator for Defense
Nuclear Nonproliferation ensure that guidance issued by the Office of Nuclear Transfer and
Supplier Policy to advise hosts of their responsibilities regarding foreign nationals includes the
appropriate level of oversight to be provided by the host during the period of the visit or
assignment.

Energy management reported that DOE Order 142.3 was approved on June 18, 2004. The
Energy OIG determined that Energy Order 142.3 included the principal roles and responsibilities
for hosts of foreign national visitors and assignees and agreed to close this recommendation.

Recommendation 7. We recommended that the Director, Office of Security and Emergency
Operations revise the Energy policy regarding foreign national visits and assignments to ensure
that Energy sites are maintaining consistent information about foreign nationals visiting or
assigned to work at the site.

Energy management reported that DOE Order 142.3 was approved on June 18, 2004. The
Energy OIG determined that Energy Order 142.3 included the requirement for documentation in
FACTS for all visit and assignment requests in a timely manner and agreed to close this
recommendation.

Recommendation 8. We recommended that the Director, Office of Security and Emergency
Operations require that all Energy sites with foreign national visitors or assignees enter
information regarding the visits or assignments into Foreign Access Records Management
System, or a designated central Energy database.

Energy management reported that DOE Order 142.3 was approved on June 18, 2004. The
Energy OIG determined that Energy Order 142.3 included the requirement that all sites having
foreign national visitors or assignees are required to enter information regarding the visits and
assignments into FACTS and agreed to close this recommendation.




Page 13                                                       Status of Recommendations from
                                                              Prior National Defense
                                                              Authorization Act Reports
Appendix D




Page 14      Management Comments
                                                                    IG Report No. INS-O-07-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page

                                      http://www.ig.doe.gov

   Your comments would be appreciated and can be provided on the Customer Response Form
                                  attached to the report.
